                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A13020016                                                                       Page 1 of 1




         We received an anonymous allegation that a PI 1 sought and obtained a falsified letter of
         recommendation regarding her community service for her CAREER award2 . The award had five
         accompanying letters of support, two of which seemed to be community service oriented.
         We spoke with the authors of both letters and they spoke highly of the PI and her participation in
         their programs to encourage young women's interest in science. They both confirmed that they
         had written the letters of support.

         Based on our review, there appears to be no substance to the allegation. This. case is closed with no
         further action taken.




NSF OIG Form 2 (11102)
